Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK,
SS:

82375

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 9th day of March 2020 deponent served 3 copies of the within
BRIEF OF NATIONAL ASSOCIATION OF COUNTIES, NATIONAL LEAGUE OF CITIES. U.S. CONFERENCE
OF MAYORS, INTERNATIONAL CITY/COUNTY MANAGEMENT ASSOCIATION, INTERNATIONAL
MUNICIPAL LAWYERS ASSOCIATION, AND NATIONAL SHERIFFS' ASSOCIATION
AS AMICI CURIAEIN SUPPORT OF RESPONDENTS

upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

E.Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com

Mark Daniel Standridge
Jarmie & Rogers, P.C.
P.O. Box 344
500 North Church Street
Las Cruces, NM 88004
(575) 526-3338
mstandridge@jarmielaw.com

Attorneys for Petitioner
Attorneys for Respondents

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on March 9, 2020, pursuant to Supreme Court
Rule 29.5(c). All parties required to be served, have been served.

HJ.t~Lt;/- {)~
Sworn to me this
March 9, 2020
NADIA R. OSWALD HAMID
Notary Public. State of New York
No. 010S6101366
Qualified in Kings County
Comm1Ssion Expires November 1 O. 2023

Case Name: Torres v. Madrid
Docket No. 19-292

